Page 2 – Charles W. Grim, D.D.S., M.H.S.A
practitioners had the appropriate qualifications, authorizations, and personnel history to
provide patient care.

We recommend that IHS ensure that Gallup Hospital’s management establishes a system
to routinely perform credentialing, privileging, and suitability reviews. The hospital
should:

      1. assign staff to perform the credentialing and privileging processes before
         the practitioners provide patient care,

      2. fully implement the computerized credentialing system to track and monitor
         the status of its practitioners, and

      3. initiate the required OPM background investigations for its practitioners.

In its written comments, IHS stated that all recommended corrective actions had been
taken. The IHS comments are included as an appendix to the report.

If you have any questions or comments about this report, please do not hesitate to call
me, or have your staff call Peter J. Koenig, Acting Assistant Inspector General for Grants
and Internal Activities, at (202) 619-3191, or e-mail him at Peter.Koenig@oig.hhs.gov.
Please refer to report number A-06-04-00024 in all correspondence.

Attachment

cc:      Jeanelle Raybon
         Director, Program Integrity and Ethics
         Indian Health Service
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CREDENTIALING AND PRIVILEGING
 PRACTICES AT GALLUP INDIAN
          HOSPITAL




                     NOVEMBER 2004
                      A-06-04-00024
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. The OEI also oversees State Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
compliance program guidances, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                               EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency within the Department of Health and Human
Services, is the principal Federal health care provider and health advocate for 1.6 million
American Indians and Alaska Natives. This report addresses credentialing, privileging,
and other personnel suitability issues at the Gallup Indian Medical Center (Gallup
Hospital), located in Gallup, NM. Gallup Hospital is one of eight hospitals that we
reviewed at IHS’s request following media reports in 2002 questioning medical staff
appointments made by IHS-funded facilities.

Gallup Hospital uses a process to screen and verify applicants for medical staff
membership that is known in the medical community as credentialing and privileging.
The Joint Commission on Accreditation of Healthcare Organizations (Joint Commission),
which has accredited all IHS-operated hospitals, provides standards for and evaluates the
adequacy of credentialing and privileging processes. Credentialing consists of verifying
education, training, and license documents and contacting recent employers to determine
an applicant’s qualifications, competence, and skills. Privileging identifies the scope of a
practitioner’s expertise and what the individual will be authorized to do at a facility.
Failure to meet the Joint Commission standards in these areas could jeopardize a
hospital’s accreditation.

The Indian Child Protection and Family Violence Prevention Act of 1990 requires
federally funded Indian organizations to meet requirements that are intended to protect
Indian children from abuse. The act requires background investigations on all employees
and contractors having contact with Indian children. IHS has an interagency agreement
with the Federal Government’s Office of Personnel Management (OPM) to perform the
background investigations.

OBJECTIVE

The objective of our audit was to determine whether Gallup Hospital had completed the
credentialing, privileging, and personnel suitability reviews for its medical practitioners.

SUMMARY OF FINDINGS

Gallup Hospital did not routinely complete required credentialing, privileging, or
personnel suitability reviews for its practitioners. The credentialing and privileging
reviews are generally required by industry-wide standards and specifically by IHS
Circular 95-16; the Indian Child Protection and Family Violence Prevention Act (Public
Law 101-630 § 408) requires background investigations.

For the 52 practitioners we reviewed, the hospital did not:

   •   verify the credentials for 26, or 50 percent, to determine their current competence;


                                              i
   •   ensure that 14, or 27 percent, had current privileges, with lapsed periods ranging
       from 6 days to 6 months; or

   •   request OPM to perform a background investigation of 23, or 44 percent.

Gallup Hospital’s management had not ensured that the credentialing, privileging, and
personnel suitability review processes received the necessary level of priority in terms of
management attention and other resources. As a result, the hospital’s management could
not assert its full assurance that its practitioners had the appropriate qualifications,
authorizations, and personnel history to provide patient care.

RECOMMENDATIONS

We recommend that IHS ensure that Gallup Hospital’s management establishes a system
to routinely perform credentialing, privileging, and suitability reviews. The hospital
should:

   1. assign staff to perform the credentialing and privileging processes before
      the practitioners provide patient care,

   2. fully implement the computerized credentialing system to track and monitor
      the status of its practitioners, and

   3. initiate the required OPM background investigations for its practitioners.

AGENCY COMMENTS

In its written response to our draft report, IHS stated that all recommended corrective
actions had been taken. The complete text of the IHS response is included in the
appendix.




                                             ii
                                              TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       IHS Request for Office of Inspector General To Examine Credentialing
             and Privileging ................................................................................................1
       IHS Provision of Health Care ..................................................................................1
       The Credentialing and Privileging Process..............................................................1
       Joint Commission on Accreditation of Healthcare Organizations...........................1
       Background Investigations for Minimum Suitability Requirements .......................2

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective ..................................................................................................................2
       Scope........................................................................................................................2
       Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

    CREDENTIALING, PRIVILEGING, AND PERSONNEL
       SUITABILITY REVIEWS FOR PRACTITIONERS .............................................3
       Requirements for Credentialing, Privilege Granting, and
               Personnel Suitability Reviews .....................................................................3
       Inadequate Credentialing, Privileging, and Personnel Suitability
               Reviews for Practitioners.............................................................................6
       Lack of a System To Ensure That Credentialing, Privileging, and
               Suitability Reviews Were Performed...........................................................7
       Insufficient Assurance That Practitioners Had the Appropriate
               Qualifications, Authorizations, or Personnel History To Provide
               Patient Care..................................................................................................8

   RECOMMENDATIONS.................................................................................................8

   AGENCY COMMENTS .................................................................................................8

APPENDIX

          IHS COMMENTS ON DRAFT REPORT




                                                                iii
                                   INTRODUCTION

BACKGROUND

IHS Request for Office of Inspector General To Examine Credentialing and
Privileging

Following negative media reports in 2002 about the quality of medical practitioners at
Indian hospitals, IHS requested the Office of Inspector General to review the adequacy of
credentialing and privileging practices at IHS-funded hospitals.

IHS Provision of Health Care

Through its network of 49 hospitals and other smaller facilities, IHS funds health care for
more than 1.6 million Native Americans and Alaska Natives. These facilities are
managed and operated directly by IHS or by tribes under self-governance agreements
with IHS.

Gallup Hospital, which IHS directly operates, is located in Gallup, NM. It has the largest
staff of all Navajo Area IHS facilities, and its workload is one of the largest in IHS, with
250,000 outpatient encounters and 5,800 inpatient admissions annually. The hospital
provides a wide range of services, including family medicine, emergency care, internal
medicine, general surgery, obstetrics and gynecology, and dental care.

The Credentialing and Privileging Process

In the health care field, credentialing and privileging are two components of a broader
quality assurance and risk management process that all facilities undertake to ensure
high-quality care. During credentialing, hospital management evaluates and verifies the
training and experience of practitioners to determine their current competence and skills.
During privileging, hospital management determines whether a practitioner is qualified to
perform specific medical functions at a particular facility. A wide range of practitioners
are typically subjected to this process, including physicians, physician assistants, nurses,
and dentists.

Joint Commission on Accreditation of Healthcare Organizations

All IHS hospitals, including Gallup Hospital, have earned Joint Commission
accreditation. IHS Circular No. 97-01 requires all IHS health care facilities to be
accredited and considers the Joint Commission to be the most broadly recognized
accrediting body in health care. To earn and maintain Joint Commission accreditation, an
organization must undergo an onsite survey every 3 years. During the onsite survey, the
Joint Commission assesses compliance with standards that it has developed for a wide
range of health care operations, including those for credentialing and privileging. Failure
to demonstrate satisfactory compliance with Joint Commission standards could result in
accreditation denial, thereby potentially disqualifying a hospital from participating in and

                                             1
receiving payment from the Medicare and Medicaid programs. Gallup Hospital received
renewed Joint Commission accreditation in May 2001.

Background Investigations for Minimum Suitability Requirements

The Indian Child Protection and Family Violence Prevention Act requires that all IHS
employees and contractors with potential direct or unobserved contact with children be
checked for any history of criminal acts against children. Congress established the act, in
part, after finding that (1) persons employed or funded by the Federal Government had
perpetrated multiple incidents of crimes against children on Indian reservations and
(2) Federal Government background investigations of Federal employees who care for or
teach Indian children were often deficient.

All Federal employees are required to meet minimum suitability requirements to be
eligible for Federal employment. Eligibility is dependent upon the results of a
background investigation conducted by OPM through an interagency agreement, which
includes a search of the FBI fingerprint files and, for IHS employees, any history of
criminal acts against children.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether Gallup Hospital had completed the
credentialing, privileging, and personnel suitability reviews for its medical practitioners.

Scope

We selected Gallup Hospital for review because it is one of the largest IHS hospitals in
the United States and has the largest staff of all Navajo Area IHS facilities. We also
selected Gallup Hospital based on the number of malpractice lawsuits at that hospital in
comparison with other Navajo Area IHS hospitals.

To accomplish our objective, we selected 52 practitioners for review to ensure a
representative selection of health disciplines. We made our selections from practitioners
who provided patient care during the period January 2000 through December 2002. At
the time of our review, Gallup Hospital had 296 practitioners who had provided patient
care during the past 3 years (2000 through 2002). We performed our audit work at the
Gallup Hospital in Gallup, NM.

Methodology

To perform our audit, we:

   •    interviewed Gallup Hospital management officials;


                                              2
   •   reviewed practitioner files to determine whether Gallup Hospital (1) verified
       credentials and granted privileges to practitioners in accordance with Joint
       Commission standards and IHS requirements and (2) initiated the process to have
       OPM investigate practitioners’ backgrounds; and

   •   issued a draft report to IHS on September 14, 2004.

We conducted our audit in accordance with generally accepted government auditing
standards.

                      FINDINGS AND RECOMMENDATIONS

CREDENTIALING, PRIVILEGING, AND PERSONNEL SUITABILITY
REVIEWS FOR PRACTITIONERS

Gallup Hospital did not routinely complete required credentialing, privileging, or
personnel suitability reviews for its practitioners. The credentialing and privileging
reviews are generally required by industry-wide standards and specifically by IHS
Circular 95-16, and the Indian Child Protection and Family Violence Prevention Act
(Public Law 101-630 § 408) requires background investigations.

For the 52 practitioners we reviewed, the hospital did not:

   •   verify the credentials for 26, or 50 percent, to determine their current competence;

   •   ensure that 14, or 27 percent, had current privileges, with lapsed periods ranging
       from 6 days to 6 months; or

   •   request OPM to perform a background investigation of 23, or 44 percent.

Gallup Hospital’s management had not ensured that the credentialing, privileging, and
personnel suitability review processes received the necessary level of priority in terms of
management attention and other resources. As a result, the hospital’s management could
not assert its full assurance that its practitioners had the appropriate qualifications,
authorizations, and personnel history to provide patient care.

Requirements for Credentialing, Privilege Granting, and Personnel Suitability
Reviews

Consistent with Joint Commission standards, IHS Circular 95-16 requires hospital
management to follow a standardized process for a credentials review and the granting of
clinical privileges. In addition, IHS is required by Federal law and regulations to obtain
personnel suitability reviews through background investigations of its employees.




                                             3
       Credentialing and Privileging

IHS Circular Appendix 95-16-A requires agency-operated hospitals such as Gallup
Hospital to have a credentialing and privileging process that is separate and distinct from
the employment process and to complete the process before medical staff members
provide patient care.

For credentialing, IHS Circular 95-16, Section 4, requires that “all individuals, who are
eligible for membership on the medical staff, must have a documented, current review of
their medical staff credentials. This includes individuals who provide direct,
independent, and unsupervised patient care services in IHS facilities . . . .”

During the course of a credentials review, an agency-operated hospital may verify a
practitioner’s information by utilizing a variety of sources. The hospital is also
responsible for ensuring that a practitioner’s credentials are reassessed and recertified on
a regular basis. As part of this reassessment, the practitioner may be required to provide
documentation. To illustrate:

   •   The status of all licenses should be verified. Licensure may be verified by
       obtaining a letter or computer printout from the appropriate State licensing board.
       The telephone or the Internet may also be utilized for licensure verification as
       long as the verification is documented.

   •   All practitioners with delineated clinical privileges must participate in continuing
       education, and their participation must be documented. For reappointments, IHS
       requires practitioners to provide evidence of continuing professional education
       obtained outside the IHS facility, and the facility is required to ensure that
       practitioners have documentation of their participation in continuing education
       activities. In addition, to fulfill part of Gallup Hospital’s requirements for
       appointment to the medical/dental staff, hospital bylaws require the credentials
       file to contain up-to-date continuing medical education documentation. At the
       time of our review, Gallup Hospital required practitioners to obtain 75 hours of
       continuing medical education every 3 years.

For privileging, IHS Circular 95-16, Section 5(D), states that “clinical privileges are
granted after careful review and consideration of an applicant’s credentials . . . [and] . . .
must reflect the training, experience, and qualifications of the applicant as they relate to
the staffing, facilities, and capabilities of the [medical facility].”

IHS’s credentialing and privileging process, as outlined in IHS Circular Appendix
95-16-A, consists of the following steps:

 Step 1. A practitioner completes applications for medical staff membership and
         clinical privileges. (The practitioner must sign and date both applications.)



                                               4
 Step 2. After the applications are returned to the medical facility, an appropriate
         person, such as the credentialing coordinator, reviews them for completeness
         and verifies the credentialing information.

 Step 3. The clinical director at the medical facility reviews both applications for
         completeness and determines whether the applicant has requested privileges
         that the facility can support or requires.

 Step 4. The clinical director reviews the applications and any additional information
         with the medical staff executive committee. This committee recommends the
         applications for medical staff membership to be accepted or rejected and
         determines which of the requested clinical privileges should be granted.

 Step 5. The service unit director at the medical facility reviews the appropriateness of
         the recommendations from the medical staff executive committee and sends
         the recommendations to the governing body of the service unit.

 Step 6. The governing body reviews the applications and grants or denies the staff
         membership and/or privileges in writing. (Acceptance at Gallup Hospital is
         signified by the signature and date of the governing body representative.)

IHS Circular Appendix 95-16-A requires the credentialing and privileging process to be
completed before a practitioner’s entry on duty. However, a medical facility may grant
temporary privileges to a new practitioner while he/she is undergoing the credentialing
process. Temporary privileges allow practitioners to provide patient care at a medical
facility while their credentials and privileges are verified and approved. However,
according to the Joint Commission, temporary privileges may not be granted to
(1) practitioners undergoing reappointment unless an important patient care need is
documented and (2) new practitioners undergoing initial appointment who do not have
primary-source verification of current licensure and competence.

       Personnel Suitability Reviews Through Background Investigations

A number of Federal laws and regulations require a review of an applicant’s suitability
for employment, and IHS must also ensure that its employees and contractors meet the
requirements of a law protecting Indian children from abuse. The Indian Health Manual
(health manual) contains the agency’s policies and instructions for obtaining background
investigations.

The Federal employment regulation for the suitability of administrative personnel
(5 CFR § 731) requires that all Federal employees meet minimum suitability
requirements to be eligible for Federal employment. Eligibility is dependent upon the
results of a background investigation that includes searches of the FBI identification
fingerprint files and records covering specific areas of a person’s background covering a
5-year period.


                                            5
In addition, the Indian Child Protection and Family Violence Prevention Act (Public Law
101-630 § 408) requires that all IHS employees and contractors with potential direct or
unobserved contact with children be investigated for any history of criminal acts against
children.

Sections 5-22.4H and 5-22.4I of the health manual discuss the processes that IHS uses to
obtain minimum suitability reviews through background investigations. These
investigations, required by Executive Order 10577, are to be conducted by OPM and,
according to Gallup Hospital officials, could take 5 months or longer to complete.
Recognizing the length of time involved with the background investigations, the health
manual advises that practitioners may be hired on a provisional basis prior to the
completion of their background investigations. To ensure that OPM reviews begin as
soon as possible, the health manual instructs the hospital to provide the required OPM
forms to the applicant with the requirement that the forms be completed and ready to
submit to the hospital’s personnel office either before or on the practitioner’s first day of
duty. The health manual further advises the hospital to ensure that the required
investigations are initiated by providing the forms to OPM within 14 days of a
practitioner’s appointment.

Inadequate Credentialing, Privileging, and Personnel Suitability
Reviews for Practitioners

Gallup Hospital did not routinely complete required credentialing, privileging, or
personnel suitability reviews for its practitioners. For the 52 practitioners we reviewed,
we found at least 1 lapse in credentialing, privileging, or suitability reviews for 43, or 83
percent. Many of the 43 practitioners had problems in 2 or more of the areas reviewed.
For the 52 practitioners, Gallup Hospital did not:

   •   verify the credentials for 26, or 50 percent, to determine their current competence;

   •   ensure that 14, or 27 percent, had current privileges, with lapsed periods ranging
       from 6 days to 6 months; or

   •   request OPM to perform a background investigation of 23, or 44 percent.

       Credentialing

For the 52 practitioners reviewed, Gallup Hospital did not verify the credentials for 26, or
50 percent, to determine their current competence, as follows:

   •   Nineteen practitioners did not have sufficient documentation to demonstrate that
       they had met minimum continuing medical education requirements in accordance
       with Gallup Hospital’s rules and regulations. Of the 19, 10 did not have any
       documented evidence of continuing medical education in their credentialing file.



                                              6
   •   Seven practitioners did not have all of their State medical licenses verified prior to
       providing patient care, as required by IHS Circular Appendix 95-16-A. Hospital
       officials did verify at least one State license as active and unrestricted for each of
       these seven practitioners. We checked the status of the licenses that were not
       verified by Gallup Hospital officials against State licensure board Internet sites
       and did not identify any restrictions or adverse actions.

       Privileging

Of the 52 practitioners reviewed, 14, or 27 percent, provided patient care without
privileges for periods ranging from 6 days to 6 months. Of the 14 practitioners, 7
provided patient care without privileges for longer than a month, and the hospital granted
temporary privileges to 5 practitioners even though there was no evidence to suggest that
there was an important patient care need, as required by the Joint Commission.

       Background Investigations

Gallup Hospital did not have information indicating that it initiated a background
investigation for 23, or 44 percent, of the 52 practitioners reviewed. The 23 practitioners
worked for periods ranging from 6 days up to 1 year and 1 month without a background
investigation initiated. All 23 of the practitioners were contractors, and they completed
their contract periods without ever having a background investigation initiated. The
remaining 29 of 52 practitioners reviewed received successful background investigations
or had an investigation in process as of the end of our fieldwork.

Lack of a System To Ensure That Credentialing, Privileging, and Suitability
Reviews Were Performed

Gallup Hospital management had not established a system to ensure that practitioners’
credentialing and privileging reviews were completed and that suitability reviews were
initiated. The hospital had not provided the attention or other resources necessary to
ensure a comprehensive credentialing, privileging, and suitability review program. The
absence of controls contributed to the number of practitioners providing patient care
without full credential reviews performed, current privileges granted, and suitability
reviews initiated. Specifically:

   •   The hospital did not have a process to ensure that medical staff membership and
       privileging applications were routinely reviewed and approved in a timely manner
       by the hospital’s medical executive committee with the hospital’s governing body
       providing final approval. The hospital’s management was ultimately responsible
       for not providing the attention necessary to ensure that its practitioners were
       appropriately credentialed and privileged.

       Subsequent to our fieldwork, however, hospital officials advised us that they had
       ordered a new computerized tracking system specifically developed for the
       credentialing and privileging processes. The officials indicated that the hospital
       had implemented a credentialing process in which all practitioners, regardless of
                                            7
       whether they are permanent employees or contractors, must be screened. This
       includes a formal presentation of the practitioners to the hospital’s medical
       executive committee, giving all applicants a full 2-year appointment.

   •   The hospital did not enforce a policy requiring contractors to undergo background
       investigations, nor did it ensure that practitioners promptly submitted required
       background investigation forms to the hospital’s personnel management
       department and that the forms were forwarded to OPM for the suitability review.
       According to a hospital official, the personnel management department assumed
       the responsibilities of initiating background investigations for contract
       practitioners effective July 1, 2002; however, hospital officials were unable to
       identify who was responsible prior to that time.

Insufficient Assurance That Practitioners Had the Appropriate Qualifications,
Authorizations, or Personnel History To Provide Patient Care

By not completing assessments of practitioners’ qualifications, competency, and
suitability to provide patient care, Gallup Hospital’s management was not fully assured
that its practitioners met standards necessary to provide patient care. Although we did
not identify evidence to suggest that any of the hospital’s practitioners were not qualified
or suitable for Federal employment, we are concerned that an IHS-funded hospital with
weak controls for credentialing, privileging, and background investigations may not be
able to sufficiently contribute to the IHS mission of elevating the health status of
American Indians and Alaska Natives.

RECOMMENDATIONS

We recommend that IHS ensure that Gallup Hospital’s management establishes a system
to routinely perform credentialing, privileging, and suitability reviews. The hospital
should:

   1. assign staff to perform the credentialing and privileging processes before
      the practitioners provide patient care,

   2. fully implement the computerized credentialing system to track and monitor
      the status of its practitioners, and

   3. initiate the required OPM background investigations for its practitioners.

AGENCY COMMENTS

In its November 3, 2004, written response to our draft report, IHS stated that it had taken
all recommended corrective actions for Gallup Hospital by:

   1. increasing the number of full-time equivalent staff to adequately provide for the
      credentialing and privileging process workload,

                                             8
   2. implementing a proprietary computerized credentialing system in November 2003
      and entering provider data on a continuous basis, and

   3. initiating OPM background investigations on or before a practitioner’s first day of
      duty, pursuant to IHS guidelines.

The complete text of IHS’s response is included in the appendix.




                                           9
APPENDIX
APPENDIX A
  Page 1 of 2
APPENDIX A
  Page 2 of 2
